No.

IN THE
SUPREME COURT OF THE UNITED STATES

MISAEL HERRERA-FUENTES,
Petitioner,
v.
UNITED STATES,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to the provisions of Rule 39 of the Rules of this Court, the
petitioner, Misael Herrera Fuentes, moves to file the attached Petition for Writ of
Certiorari to the United States Court of Appeals for the First Circuit without
prepayment of costs and to proceed in forma pauperis.
The petitioner was represented in the United States Court of Appeals for the
First Circuit by counsel appointed pursuant to the Criminal Justice Act (18 U.S.C.
ยง3006A).

Christine DeMaso
Attorney for Petitioner

Dated: January 5, 2021

